                                          May 24, 2004




MEMORANDUM TO: William D. Travers
               Executive Director for Operations



FROM:                 Stephen D. Dingbaum/RA/
                      Assistant Inspector General for Audits


SUBJECT:              MEMORANDUM REPORT: REVIEW OF NRC’S DRUG-FREE
                      WORKPLACE PLAN (OIG-04-A-15)


As part of the Office of the Inspector General’s (OIG) audit of NRC’s Drug-Testing
Program, auditors identified an issue that warrants your immediate attention. The NRC
Drug-Free Workplace Plan (Plan) is not in compliance with Federal guidance that
requires the Plan to receive U.S. Department of Health and Human Services (HHS)
approval. Furthermore, a required clause is missing from the Plan. These lapses
occurred because NRC management officials implemented the Plan without obtaining
confirmation from HHS that the Plan was acceptable. Consequently, without the
required approval, the testing procedures contained in the NRC Drug-Free Workplace
Plan are vulnerable to successful legal challenge. OIG brings this matter to your
attention because the agency is close to completing and issuing a revised Plan without
the needed clause. This report makes three recommendations to the Executive Director
for Operations to bring the NRC Drug-Free Workplace Plan into compliance with Federal
guidance.

OIG briefed NRC senior managers prior to issuance of this report. During this briefing,
NRC senior managers informed OIG that they would request HHS approval of NRC’s
revised Plan.

BACKGROUND

Executive Order 12564, Drug-Free Federal Workplace (September 15, 1986),
established the goal of a drug-free Federal workplace and made it a condition of
employment for all Federal employees to refrain from using illegal drugs on or off duty.

Executive Order 12564 authorizes HHS to publish guidance for drug-testing programs,
requires each agency head to develop a plan for achieving a drug-free workplace, and
requires agencies to conduct their drug-testing programs in accordance with HHS
guidelines. In 1987, Congress passed legislation designed to establish uniformity
among Federal agency drug-testing plans and centralize oversight of the Federal drug-
testing programs.
                                                           Review of NRC’s Drug-Free Workplace Plan




To implement this legislation, HHS convened the Interagency Coordinating Group
Executive Committee to certify and oversee Federal agency drug-testing plans. The
Executive Committee consists of representatives from HHS,1 the U.S. Department of
Justice, and the U.S. Office of Personnel Management.

In July 1988, NRC implemented its first drug-testing plan, which HHS approved. In
November 1997, NRC’s drug-testing plan was superseded by the NRC Drug-Free
Workplace Plan, which the agency is currently using. Previously, the NRC Office of
Human Resources had the responsibility for writing this document. Since FY 2004 the
Office of Administration has had this responsibility and is close to completing a revision.

FINDING

The NRC Drug-Free Workplace Plan Is Not in Compliance With Requirement for
Approval

HHS guidance concerning Federal drug-testing programs requires that agency drug-
testing plans receive HHS approval and incorporate specific provisions concerning drug-
testing procedures. NRC is not in compliance with this guidance in the following two
ways:

    •    NRC’s 1997 Plan has not been approved.
    •    NRC’s 1997 Plan does not contain a required clause.

These lapses occurred because management officials did not obtain confirmation from
HHS that the Plan was acceptable before implementing the agency’s current Plan.
Without this approval, the testing procedures contained in the NRC Drug-Free
Workplace Plan are vulnerable to successful legal challenge.

        U.S. Department of Health and Human Services Guidance Requires Approval of
        Changes to Agency Drug-Testing Plans

HHS provided agencies subject to Executive Order 12564 with the Model Plan for a
Comprehensive Drug-Free Workplace Program to develop their drug-free workplace
plans. The model plan, developed by the Interagency Coordinating Group Executive
Committee, mandated the components and other key features of Federal agency plans.

Agencies with certified, or previously approved, drug-free workplace plans periodically
determine that changes are needed. Substantive changes in an agency’s plan and
changes in the positions designated for random testing require advance consultation and
approval by the Interagency Coordinating Group Executive Committee. Agencies must
submit, for consultation and approval, a statement describing and justifying the proposed
changes. According to an HHS representative, the Interagency Coordinating Group
Executive Committee expects agencies to write their plans to be in conformance with the
model.



1
 HHS’ Substance Abuse and Mental Health Services Administration, Division of Workplace Programs,
oversees the Federal drug-testing program.


                                                 2
                                                     Review of NRC’s Drug-Free Workplace Plan



       The NRC Drug-Free Workplace Plan Lacks U.S. Department of Health and
       Human Services Approval

The NRC Drug-Free Workplace Plan is not in compliance with Federal guidance that
requires review and approval from the oversight authority, HHS. The HHS Secretary
certified NRC’s 1988 plan in compliance with Executive Order 12564. However, NRC
never received approval for its current plan, which has been in effect since 1997.
Although NRC forwarded a copy of this revised Plan to HHS in February 1997, with a
cover letter stating that changes had been incorporated, HHS never contacted NRC
about the changes and did not approve the revised document. After approximately 6
months, NRC implemented the Plan without further communication with HHS.

       A Required Clause Is Missing From the NRC Drug-Free Workplace Plan

According to an HHS representative, a required clause, titled “Deferral of Testing,” is
missing from NRC’s Plan. Deferral of testing allows drug testing of employees who were
absent on the day of the drug test for up to 60 days after the test date. This clause,
which reinforces the random selection process, is contained in the Model Plan for a
Comprehensive Drug-Free Workplace Program and was included in NRC’s 1988
certified Plan. NRC’s current process excuses randomly selected employees who are
absent. As a result, other employees face an increased chance of selection. Using the
deferral of testing clause equalizes absent employees’ selection with other employees.
The HHS representative said HHS would not have approved NRC’s revision to the Plan
without the deferral of testing clause.

       NRC Management Officials Did Not Obtain Confirmation From the U.S.
       Department of Health and Human Services

These lapses occurred because NRC management officials implemented changes to the
agency’s previously approved plan without obtaining confirmation from HHS that the
changes were acceptable. The Office of Human Resources manager serving as the
point of contact with HHS for revisions was unaware that such confirmation was needed.
In addition, the manager:

   •   Did not consider NRC’s revisions to be substantive.
   •   Was unaware of the required deferral of testing clause.

       The NRC Drug-Free Workplace Plan Is Legally Vulnerable

Without HHS approval, the drug-testing procedures contained in the NRC Drug-Free
Workplace Plan are vulnerable to successful legal challenge. This vulnerability would
surface when an employee legally challenges the validity of NRC’s drug-testing process.
For example, if NRC imposed disciplinary action on an employee who had a positive
drug test result, the employee could appeal the action. The employee would be likely to
prevail in an administrative appeal and the disciplinary action would not be sustained.
Even if the agency prevailed, the employee could challenge the action in Federal court.

The U.S. Department of Justice, which has litigation discretion, would be likely to decline
to defend the action because testing was based on an unapproved plan. Again, the
disciplinary action would not be sustained.



                                            3
                                                    Review of NRC’s Drug-Free Workplace Plan



CONCLUSION

The agency is completing revisions to NRC’s Plan that are not in compliance with
Federal guidance. The Interagency Coordinating Group Executive Committee
responsible for oversight of Federal drug-testing programs has developed a standard
format for agencies to follow when writing a plan that ensures consistent drug-testing
program implementation. Despite this instruction, NRC has implemented a plan that
deviates from the model and the revised Plan deviates from the model. To avoid a
successful legal challenge, HHS must approve the NRC Drug-Free Workplace Plan.

RECOMMEMDATIONS

OIG recommends that the Executive Director for Operations:

   1. Revise the NRC Drug-Free Workplace Plan to include the deferral of testing
      clause from the U.S. Department of Health and Human Services Model Plan for a
      Comprehensive Drug-Free Workplace Program.

   2. Include in the NRC Drug-Free Workplace Plan instruction that revisions must
      receive approval from U.S. Department of Health and Human Services prior to
      implementation.

   3. Obtain U.S. Department of Health and Human Services approval of the 2004
      NRC Drug-Free Workplace Plan prior to implementation.

AGENCY COMMENTS

At the exit meeting on May 19, 2004, OIG discussed the report’s content with NRC
officials. NRC officials agreed with the report’s findings and recommendations.

SCOPE AND METHODOLOGY

To accomplish the audit’s objectives, OIG reviewed NRC Management Directives,
agency guidance, and Federal guidance pertaining to NRC’s Drug-Testing Program.
Auditors interviewed the Leader of Policy Oversight, Substance Abuse and Mental
Health Services Administration, HHS and NRC staff members from the Office of Human
Resources and the Office of Administration. This work was conducted from
February 2004 through April 2004 in accordance with generally accepted Government
auditing standards and included a review of management controls related to the
objectives of the audit. The work was conducted by Beth Serepca, Team Leader, Vicki
Foster, Senior Management Analyst and David Ditto, Management Analyst.

Please provide information on the actions taken in response to the recommendations
directed to your office by June 25, 2004. Actions taken or planned are subject to OIG
follow-up. See Attachment for instructions for responding to OIG report
recommendations.




                                            4
                                                    Review of NRC’s Drug-Free Workplace Plan



If you have any questions or concerns regarding this report, please contact
Beth Serepca at 415-5911 or me at 415-5915.

Attachment: As stated

cc:    Chairman Diaz
       Commissioner McGaffigan
       Commissioner Merrifield




                                           5
                              Review of NRC’s Drug-Free Workplace Plan




B.J. Garrick, ACNW
M. Bonaca, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
L. Reyes, OEDO
E. Merschoff, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
W. Outlaw, OCM/DOC
D. Rathbun, OCA
E. Brenner, OPA
A. Vietti-Cook, SECY
W. Kane, DHPP/OEDO
C. Paperiello, NRR
P. Norry, DEDM/OEDO
M. Springer, ADM
J. Dyer, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, DRP/OEDO
S. Collins, DRP/OEDO
P. Lohaus, STP
F. Congel, OE
J. Strosnider, NMSS
R. Zimmerman, NSIR
H. Miller, RI
J. Caldwell, RIII
B. Mallett, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
W. Dean, OEDO
M. Malloy, OEDO
P. Tressler, OEDO




                          6
